No. 20-1004
IN THE

Supreme Court of the United States
ROBERT COLLIER,
Petitioner,
U.

DALLAS COUNTY HOSPITAL DISTRICT, doing business as
Parkland Health & Hospital System,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT
MOTION FOR LEAVE TO FILE BRIEF AND
BRIEF FOR AMICUS CURIAE
THE HOWARD UNIVERSITY SCHOOL OF LAW
HUMAN AND CIVIL RIGHTS CLINIC IN
SUPPORT OF PETITIONER
Edward Williams
Counsel of Record
Tiffany R. Wright
HOWARD UNIVERSITY
SCHOOL OF LAW
2900 Van Ness Street NW
Washington, DC 20008
(202) 663-6487
Ed.Williams@wilmerhale.com
Counsel for Amicus Curiae

1

MOTION FOR LEAVE TO FILE BRIEF OF AMICUS CURIAE HOWARD UNIVERSITY
SCHOOL OF LAW HUMAN AND CIVIL
RIGHTS CLINIC1
This case presents an issue of special importance
concerning Title VII's protections against racial discrimination in American workplaces. Given its historical advocacy for the rights of racial minorities, the
Howard University School of Law Human and Civil
Rights Clinic is well-suited to provide additional insight on the history and use of deeply engrained pejoratives leveled against Black employees and the
continued need to ensure that Title VII's anti-discrimination protections remain robust.
Howard University School of Law is the nation's
first historically Black law school. For more than 150
years since its founding during Reconstruction, the
law school has worked to train "social engineers" devoted to the pursuit of human rights and racial justice. As part of this mission, the Howard University
School of Law's Human and Civil Rights Clinic ("the
Clinic") advocates on behalf of clients and communities fighting for the realization of civil rights guaranteed by the U.S. Constitution and remedial federal
Petitioner has consented to the filing of this brief. Amicus requested consent from Respondent on January 27, 2021, and has
not received a response. In accordance with Rule 37.2(a), Amicus is submitting this brief more than 10 days before its due
date. Amicus submits this motion for leave to file out of an abundance of caution. No party, counsel for a party, or any person
other than amicus curiae and their counsel made a monetary
contribution intended to fund the preparation or submission of
the brief.

11

statutes. The Clinic therefore has a particular interest in eradicating racial hostility in the American
workplace and ensuring that Title VII of the 1964
Civil Rights Act continues to provide robust protection against all types of employment discrimination
on the basis of race.
The Clinic timely notified counsel of record for
both parties that it intended to submit the attached
brief more than 10 days prior to filing. Counsel for
petitioner consented to the filing of this brief. Counsel
for respondent did not respond to the Clinic's request.
Therefore, pursuant to Supreme Court Rule 37.2(b),
the Clinic respectfully moves this Court for leave to
file the accompanying brief of amicus curiae in support of petitioner.
Respectfully submitted,
Edward Williams
Counsel of Record
Tiffany R. Wright
HOWARD UNIVERSITY
SCHOOL OF LAW
2900 Van Ness Street NW
Washington, DC 20008
(202) 663-6487
Ed.Williams@wilmerhale.com

111

TABLE OF CONTENTS
Page
MOTION FOR LEAVE TO FILE BRIEF OF
AMICUS CURIAE HOWARD
UNIVERSITY SCHOOL OF LAW
HUMAN AND CIVIL RIGHTS CLINIC
TABLE OF AUTHORITIES
INTRODUCTION AND SUMMARY OF
ARGUMENT
, ARGUMENT

iv
1
2

Arty Use Of The Word "N*gger"—
Including A Single Use—In The
Workplace Creates An Actionable Hostile
Work Environment

2

Referring To Black Male Employees As
"Boy" May Create An Actionable Hostile
Work Environment

5

The Presence Of A Swastika In The
Workplace May Create An Actionable
Hostile Work Environment

8

The Court Should Grant Certiorari To
Correct The Fifth Circuit's Legal Error
CONCLUSION

10
12

iv
TABLE OF AUTHORITIES
Cases
Adams v. Austal, U.S.A., LLC,
754 F.3d 1240 (11th Cir. 2014)
Armstrong v. Whirlpool Corp.,
363 F. App'x 317 (6th Cir. 2010)
Ash v. Tyson Foods,
546 U.S. 454 (2006)

11

8

2, 7

Ayissi-Etoh v. Fannie Mae,
712 F.3d 572 (D.C. Cir. 2013)

11

Bailey v. Binyon,
583 F. Supp. 923 (N.D. IL 1984)

11

Bailey v. USF Holland, Inc.,
No. 3:05-0435, 2007 WL 470439
(M.D. Tenn. Feb. 8, 2007)

8

Faragher v. City of Boca Raton,
524 U.S. 775 (1998)

10

Jackson v. Quanex Corp.,
191 F.3d 647 (6th Cir. 1999)

9

Mack v. ST Mobile Aerospace
Eng'g, Inc.,
195 Fed. App'x 829 (11th Cir. 2006)

9

McGinest v. GTE Serv. Corp.,
360 F.3d 1103 (9th Cir. 2004)

11

V

McKenzie v. Citation Corp.,
No. 05-0138, 2007 WL 1424555 (S.D.
Ala. May 11, 2007)

8

McKnight v. General Motors Corp.,
908 F.2d 104 (7th Cir. 1990)

5

Meritor Savings Bank v. Vinson
477 U.S. 57 (1986)

10

Monteiro v. Tempe Union High
Sch. Dist.,
158 F.3d 1022 (9th Cir. 1998)

3

Richardson v. N.Y.S. Dep't of
Corr. Serv.,
180 F.3d 426 (2d Cir. 1999)

4

Rodgers v. Western-Southern
Life Ins. Co.,
12 F.3d 668 (7th Cir. 1993)

5, 11

Tademy v. Union Pacific Corp.,
614 F.3d 1132 (10th Cir. 2008)

7

Virginia v. Black,
538 U.S. 343 (2003)

1

Watson v. CEVA Logistics, U.S., Inc.,
619 F.3d 936 (8th Cir. 2010)

9

White v. BFI Waste Servs., LLC,
375 F.3d 288 (4th Cir. 2004)

8

vi
Other Authorities
Anti-Defamation League, Hate Symbols, tinyurl.com/ydowk88y (last visited Feb. 10, 2021)

8

Brief for Civil Rights Leaders Hon.
U.W. Clemon et al. as Amici Curiae
in Support of Plaintiff-Appellant's
Petition for Rehearing En Banc, Ash
v. Tyson, 664 F.3d 883 (11th Cir.
2011) (No. 08-16135)

5

Gene Demby, When Boys Can't Be Boys,
NPR, Nov. 2, 2018,
tinyurl.com/2f734ofh

6

Frederick Douglass, Narrative of the
Life of Frederick Douglass, An
American Slave (1845)

6

Hosea Easton, A Treatise on the
Intellectual Character, and Civil and
Political Condition of the Colored
People of the U. States; and the
Prejudice Exercised Towards Them
(Maxwell Whiteman ed., Boston, I.
Knapp 1837)

3

Steve Estes, "I am a Man!':• Race,
Masculinity, and the 1968 Memphis
Sanitation Strike 41 Lab. Hist. 153
(2000)

6

vii
Laurie Goodstein, Swastika is Deemed
Universal Hate Symbol, N.Y. Times,
July 28, 2010, tinyurl.com/y1rt34kh

8

Gregory S. Parks & Shayne E. Jones,
"Nigger" : A Critical Race Realist
Analysis of the N-Word Within Hate
Crimes Law, 98 J. Crim. L. &
Criminology 1305 (2008)

2, 3

Shaun R. Harper, Niggers No More: A
Critical Race Counternarrative on
Black Male Student Achievement at
Predominantly White Colleges and
Universities, 22 Int'l J. of
Qualitative Stud. in Educ. 697 (NovDec 2009)

3

William Bradford Huie, The Shocking
Story of Approved Killing in
Mississippi, t.ly/91fQ

4

Randall L. Kennedy, Nigger: The
Strange Career of a Troublesome
Word (2002)

2, 4

Dr. Martin Luther King, Jr., Why We
Can't Wait (1964)

6

Nathan Layne, White Defendant Used
Racial Slur After Shooting Ahmaud
Arbery, investigator testifies,
Reuters, June 4, 2020, t.ly/OTxF

4

Merriam-Webster, tinyurl.com/lotlfz8j
(last visited Feb. 10, 2021)

3

viii
Phil Reeves, 'We're going to kill you,
nigger,' The Independent, Oct. 23,
2011, t.ly/tXKb
Eric Schnapper, Some of Them Still
Don't Get It: Hostile Work
Environment Litigation in the Lower
Courts, 1999 U. Chi. Legal F. 277
(1999)

4

10

Unrest in Virginia, Time, tinyurl.com/lkhksmdl (last visited
Feb. 10, 2021)

9

Jerome R. Watson & Richard W. Warren, I Heard it Through the
Grapevine: Evidentiary Challenges
in Racially Hostile Work
Environment Litigation, 19 Labor
Law. 381 (Winter/Spring 2004)

5

INTRODUCTION AND
SUMMARY OF ARGUMENT
"In every culture, certain things acquire meaning
well beyond what outsiders can comprehend." Virginia v. Black, 538 U.S. 343, 388 (2003) (Thomas, J.,
dissenting). For Black Americans, this country's history of racial subjugation and violence is deeply embedded in certain words and symbols, including, as
relevant here, "n*gger," "boy," and the swastika. The
use of these words and symbols alone or in tandem
with other hallmarks of discrimination instantly informs Black employees that, at the least, their presence is unwanted, or worse, they are in danger.
The Fifth Circuit's opinion in this case ignores
this context. In doing so, the Fifth Circuit added its
voice to the wrong side of a deeply entrenched split
among the federal courts of appeal as to whether even
a single use of pejoratives like "n*gger" and "boy," and
symbols like swastikas can sufficiently establish an
actionable hostile work environment claim under Title VII. The traumatic history embedded in these
words and symbols leaves no doubt: Even a single invocation of just one of these words or symbols in the
workplace can be so traumatic and so dehumanizing
that it negatively changes the terms and conditions of
employment. Robert Collier was subjected to all
three.
(1) Marked by violence and dehumanization, the
word "n*gger" still carries with it the trauma that has
accompanied it through slavery, Jim Crow, and modern-day hate crimes. (2) Similarly, the word "boy"
when used by a superior to refer to a Black employee
is a term of infantilization and subjugation—a fact

2
this Court recognized in Ash u. Tyson Foods, 546 U.S.
454 (2006). (3) And the swastika, no longer solely a
symbol of anti-Semitism, carries with it the notions of
white supremacy and white nationalism, which are
unmistakably hostile to a Black employee.
This case presents a proper vehicle for this Court
to finally declare—contrary to the Fifth Circuit's conclusion—that there is no legal barrier to a jury reaching the conclusion that a Black employee subjected to
certain deeply engrained, historical pejoratives has
been subjected to a hostile work environment under
Title VU.
Collier's petition for a writ of certiorari should be
granted.
ARGUMENT
I. Any Use Of The Word "N*ggee—Including A
Single Use—In The Workplace Creates An
Actionable Hostile Work Environment
N*gger is "the paradigmatic racial epithet." Gregory S. Parks & Shayne E. Jones, "Nigger" A Critical
Race Realist Analysis of the N-Word Within Hate
Crimes Law, 98 J. Crim. L. & Criminology 1305, 131617 (2008) (emphasis added) (citing Randall L. Kennedy, Nigger: The Strange Career of a Troublesome
Word 4 n.2 (2002)). The word "n*gger" encapsulates
the dehumanizing history of Black Americans from
the first African captives that landed in Virginia to
the emancipated slaves that navigated the Jim Crow
South, through today. The word reinforces the racial
hierarchy that drives the notion of Black inferiority,
and "ranks as almost certainly the most offensive and

3
inflammatory racial slur in English, a term expressive of hatred and bigotry." Nigger, Merriam-Webster, tinyurl.com/lotlfz8j (last visited Feb. 10, 2021);
see also Monteiro v. Tempe Union High Sch. Dist., 158
F.3d 1022, 1034 (9th Cir. 1998) (referring to n*gger as
"the most noxious racial epithet in the contemporary
American lexicon").
While the precise origins of the slur are undefined, there is no doubt that by the mid-nineteenth
century, the term was "employed to impose contempt
upon [Blacks] as an inferior race." Parks, supra at
1316 (quoting Hosea Easton, A Treatise on the Intellectual Character, and Civil and Political Condition
of the Colored People of the U. States; and the Prejudice Exercised Towards Them 40 (Maxwell Whiteman
ed., Boston, I. Knapp 1837)). Indeed, the term had so
clearly taken on this meaning by the mid-nineteenth
century that it was employed by white parents as a
reprimand for their children. Id.
A child would be reprimanded by an adult for
being 'ignorant as a nigger,' for having 'no
more credit than a nigger,' or for being 'worse
than a little nigger.' Adults disciplined White
children by telling them that if they misbehaved they would be made to sit with niggers,
consigned to the 'nigger-seat,' or carried away
by 'the old nigger.'
Id. The pervasive use of the slur has continued
through the twentieth and twenty-first centuries. Today, when a Black person is called a "n*gger," it "usually incites emotional hurt and a range of other
injurious feelings." Shaun R. Harper, Niggers No

4
More: A Critical Race Counternarrative on Black Male
Student Achievement at Predominantly White Colleges and Universities, 22 Int'l J. of Qualitative Stud.
in Educ. 697-712, 699 (Nov-Dec 2009) (citing Kennedy, supra).
Because the use of the word "n*gger" so often accompanies physical violence, a Black person who encounters the word "n*gger" may believe him or herself
to be in real, immediate danger. Unfortunately, the
examples of this nexus are legion: Emmett Till's murderers asked him if he was "the n*gger who did the
talking" before he was carried off, tortured, and killed,
William Bradford Huie, The Shocking Story of Approved Killing in Mississippi, t.ly/91fQ (article originally appeared in January 1956 issue of Look
Magazine); Rodney King was told "[w]e're going to kill
you n*gger" as Los Angeles police officers attempted
to make good on that promise, Phil Reeves, 'We're going to kill you, nigger,' The Independent, Oct. 23,
2011, t.ly/tXKb; and recently, Ahmaud Arbery was
called a "f*cking n*gger" by his murderers after being
hunted down while out on a jog, Nathan Layne, White
Defendant Used Racial Slur After Shooting Ahmaud
Arbery, investigator testifies, Reuters, June 4, 2020,
t.ly/OTxF;
Given its history, toxicity, and the trauma it instantaneously triggers, the word "n*gger" has no
place anywhere, including the work environment.
Several courts of appeal have recognized as much,
reasoning that "no single act can more quickly alter
the conditions of employment and create an abusive
working environment . . . than the use of . . . 'nigger.'"
Richardson v. N.Y.S. Dep't of Corr. Serv., 180 F.3d

5
426, 439 (2d Cir. 1999) (internal quotations omitted)
(quoting Rodgers v. Western-Southern Life Ins. Co., 12
F.3d 668, 675 (7th Cir. 1993)); see also McKnight v.
General Motors Corp., 908 F.2d 104, 114 (7th Cir.
1990) (noting that the use of n*gger even in jest may
be evidence of racial antipathy), superseded by statute
on other grounds as recognized in, Humphries v.
CBOCS W., Inc., 474 F.3d 387, 391 (7th Cir. 2007).
The vitriolic effects of the slur, moreover, are not
mitigated by its appearance in written form instead
of being heard aurally. Indeed, an epithet's severity
is often compounded in written form, for while a slur
may be heard once, graffiti in the workplace may be
observed multiple times by a single employee or seen
by "tens or hundreds" of employees. See Jerome R.
Watson & Richard W. Warren, I Heard it Through the
Grapevine: Evidentiary Challenges in Racially Hostile Work Environment Litigation, 19 Labor Law. 381,
399-402 (Winter/Spring 2004) (collecting and discussing hostile work environment cases with racist graffiti
at issue).
In short, the presence of "n*gger" in the workplace
necessarily creates an actionable hostile work environment claim under Title VII because it is the most
vile historical pejorative in the American lexicon.
II. Referring To Black Male Employees As
"Boy" May Create An Actionable Hostile
Work Environment
Historically, "boy" holds a similar place in the
realm of racially motivated epithets as "n*gger." Brief
for Civil Rights Leaders Hon. U.W. Clemon et al. as
Amici Curiae in Support of Plaintiff-Appellant's

6
Petition for Rehearing En Banc at 5, Ash v. Tyson, 664
F.3d 883 (11th Cir. 2011) (No. 08-16135) ("If not a
proxy for 'nigger,' it is at the very least a close
cousin."). Like the word "n*gger," the history of the
word "boy" is rooted in slavery and efforts to dehumanize Black Americans, specifically Black men.
Slaveholders would often refer to their Black male
slaves as "boys" in an effort to dehumanize them. See
Frederick Douglass, Narrative of the Life of Frederick
Douglass, An American Slave 92 (1845).
During the Jim Crow era, being called "boy" was
described as "one of Jim Crow's ritual humiliations,
braided into the racial etiquette of the post-slavery
South. It was yet another way. . .that white people
weaponized language to remind black folks of their
place." Gene Demby, When Boys Can't Be Boys, NPR,
Nov. 2, 2018, tinyurl.com/2f734ofh. Too often, like
"n*gger," the word "boy" was accompanied by lynchings, beatings, "and other KKK retaliation for civil
rights activities." See Steve Estes, "I am a Man!':•
Race, Masculinity, and the 1968 Memphis Sanitation
Strike, 41 Lab. Hist. 153, 162 (2000) (hereinafter "Estes"). Thus, "boy" became a tool to intimidate Black
men into following the orders of white people. Id.
Black men have fought this infantilization at
every turn, most visibly during the civil rights movement, when protestors wore signs stating, "I am a
man." See Estes, I Am a Man!: at 162. Those signs
were a direct response to white people who referred to
Black men as "boys" well into their older age. Id.; see
also Dr. Martin Luther King, Jr., Why We Can't Wait
69 (1964) ("[W]hen your first name becomes 'nigger,'

7
your middle name becomes 'boy' (however old you
are).").
Today, as evidenced by this case, "boy" is still used
to humiliate Black men in the workplace. This Court
recognized as much in Ash v. Tyson Foods, 546 U.S.
454 (2006) (per curiam). There, two Black men
brought a Title VII claim alleging that they were not
promoted because of their race. Id. at 455. As evidence of discriminatory animus, petitioners offered
that the hiring decision-maker had referred to the two
men as "boy." Id. at 456. The court of appeals reasoned that "boy" without a preceding racial modifier,
i.e., white or Black, was not evidence of discriminatory animus. Id. This Court rejected that reasoning
noting that "[a]lthough it is true the disputed word
will not always be evidence of racial animus, it does
not follow that the term, standing alone, is always benign." Id. This Court added that "[t]he speaker's
meaning may depend on various factors including
context, inflection, tone of voice, local custom, and historical usage." Id.
The Fifth Circuit's decision below fails to heed
Ash's clear lesson that "boy" in certain contexts—like
the one at issue here—may constitute the type of discriminatory animus that Title VII was enacted to
eradicate from the American workplace. As this
Court did in Ash, it should grant certiorari here to reverse the court of appeal's error. Doing so would bring
the Fifth Circuit into alignment with several other
courts that have already grasped Ash's lesson. See,
e.g., Tademy v. Union Pacific Corp., 614 F.3d 1132,
1142-46 (10th Cir. 2008) (District court erred in deciding no racial motive where a white employee placed a

8
tied rope over a workplace clock, specifically in light
of the racist graffiti, and the manager's use of the
word "boy" and other disparaging references.); Armstrong v. Whirlpool Corp., 363 F. App'x 317, 322 (6th
Cir. 2010) (finding that a supervisor addressing African-American men as "boys" supported a hostile environment claim); White v. BFI Waste Servs., LLC, 375
F.3d 288, 297 (4th Cir. 2004) (reversing summary
judgment on a hostile work environment claim based
on defendant's use of 'boy,' and other racially offensive
language); Bailey v. USF Holland, Inc., No. 3:050435, 2007 WL 470439, at *10 (M.D. Tenn. Feb. 8,
2007) (acknowledging that "boy" has been used "from
the time of slavery" to refer to Black men "in a demeaning [and] insulting manner"), aff'd, 526 F.3d 880
(6th Cir. 2008); McKenzie v. Citation Corp., No. 050138, 2007 WL 1424555, at *12 (S.D. Ala. May 11,
2007) ("[B]oy' standing alone may be evidence of racial animus.").
III. The Presence Of A Swastika In The Workplace May Create An Actionable Hostile
Work Environment
Traditionally, the swastika has been viewed as a
symbol of anti-Semitism, but the swastika has taken
on broader meanings in recent decades. Anti-Defamation League, Hate Symbols, tinyurl.com/ydowk88y
(last visited Feb. 10, 2021). It has evolved into a general symbol of hate and white supremacy used to terrorize and intimidate numerous ethnic and racial
minorities.
See Laurie Goodstein, Swastika is
Deemed Universal Hate Symbol, N.Y. Times, July 28,
2010, tinyurl.com/y1rt34kh (recognizing the swastika

9
is a symbol "used as an epithet against African Americans, Hispanics, and gays, as well as Jews").
White-supremacist hate groups have adopted the
symbol as such. For example, in 2017, a "Unite the
Right" (riotous) rally in Charlottesville, Virginia, saw
white supremacists proudly flying flags with the
swastika.
See Unrest in Virginia, Time, tinyurl.com/lkhksmdl (last visited Feb. 10, 2021). The
rioters present at the rally proclaimed white supremacy generally, which included animus against African
Americans. Id.
For a Black employee, a swastika, like the word
"n*gger" or being called "boy," indicates that his workplace is not safe or at least there are those with whom
he is employed who view him as inferior. Understanding this, several courts have relied on the presence of a swastika in Title VII cases where Black
petitioners allege discrimination on the basis of race
See e.g., Watson v. CEVA Logistics, U.S., Inc., 619
F.3d 936, 938-39 (8th Cir. 2010) (holding that a swastika, coupled with other pejoratives, created a question for the jury as to hostility); Jackson v. Quanex
Corp., 191 F.3d 647 (6th Cir. 1999) (holding that a
swastika, coupled with "boy" and other epithets, can
raise a question for the jury as to workplace hostility);
Mack v. ST Mobile Aerospace Eng'g, Inc., 195 Fed.
App'x 829, 835 (11th Cir. 2006) (holding that a swastika, coupled with nooses and Confederate flags, was
sufficient to raise a question for the jury).
The Fifth Circuit's decision below failed to
properly consider the presence of the swastikas in its
analysis of Collier's hostile work environment claim.

10
This Court should grant certiorari to reverse this error.
IV. The Court Should Grant Certiorari To
Correct The Fifth Circuit's Legal Error
It was the province of the jury to determine
whether the etching of "n*gger" and multiple swastikas into spaces frequented by Collier in addition to
being called a "boy" by his superior, individually or in
combination, sufficiently established a hostile work
environment claim under Title VII. The Fifth Circuit
took that question from the jury and concluded that
these words and symbols could not constitute a hostile
work environment claim as a ,matter of law. That was
legal error and must be reversed.
Under Meritor Savings Bank v. Vinson, an actionable hostile work environment claim requires that the
harassment be sufficiently "severe or pervasive to alter the conditions of [the victim's] employment and
create an abusive working environment." 477 U.S. 57,
67 (1986) (internal quotation marks omitted). The severity-based path to a hostile work environment claim
requires a single incident that was so unusual and inappropriate that the conditions of the workplace were
altered. Eric Schnapper, Some of Them Still Don't
Get It: Hostile Work Environment Litigation in the
Lower Courts, 1999 U. Chi. Legal F. 277, 326 (1999).
With this in mind, isolated instances should amount
to harassment if they are extremely serious and if
they alter the conditions of employment. See Faragher v. City of Boca Raton, 524 U.S. 775, 788 (1998).
In applying this standard, several courts have
concluded that a single use of certain epithets is

11
sufficient to establish a hostile work environment
claim because of the gravity of the slur. See Rodgers,
12 F.3d at 675 ("[P]erhaps no single act can more
quickly alter the conditions of employment" than "the
use of an unambiguously racial epithet such as 'n----r'
by a supervisor."); McGinest v. GTE Serv. Corp., 360
F.3d 1103, 1116 (9th Cir. 2004); Adams v. Austal,
U.S.A., LLC, 754 F.3d 1240, 1253-54 (11th Cir. 2014)
(holding that the carving of "'porch monkeys"' "was
an isolated act, [albeit] severe."); Bailey v. Binyon, 583
F. Supp. 923 (N.D. Il. 1984) ("[T]he use of the word 'n---r' automatically separates the person addressed
from every non-black person; this is discrimination
per se."); Ayissi-Etoh v. Fannie Mae, 712 F.3d 572, 577
(D.C. Cir. 2013). Indeed, then-Judge Kavanaugh has
explained that "[a] single, sufficiently severe incident ... may suffice to create a hostile work environment." Id. at 579 (Kavanaugh, J., concurring)
("[S]aying that a single incident of workplace conduct
rarely can create a hostile work environment is different from saying that a single incident never can create
a hostile work environment.").
The Fifth Circuit has rejected these well-reasoned
conclusions, effectively granting one free pass to those
who would poison American workplaces with the
venom of racism. If left to stand, the Fifth Circuit's
decision allows Black employees to be on the receiving
end of at least one "n*gger," one "boy," or one swastika. Indeed, under the Fifth Circuit's holding, that
free pass would allow each of these pejoratives to exist
simultaneously in a single workplace, with no resort
to Title VII's protections. This Court should grant
certiorari and reverse the Fifth Circuit's erroneous
decision.

12
CONCLUSION
This Court should grant the petition for a writ of
certiorari.
Respectfully submitted,
Edward Williams
Counsel of Record
Tiffany R. Wright
HOWARD UNIVERSITY
SCHOOL OF LAW
2900 Van Ness Street NW
Washington, DC 20008
(202) 663-6487
Ed.Williams@wilmerhale.com
February 12, 2021

